          OFFICE OF INSPECTOR GENERAL 




                                   Catalyst for Improving the Environment


Quality Control Review Report




        McGladrey & Pullen, LLP
        Single Audit of Geothermal Heat
        Pump Consortium, Inc., for
        Year Ended December 31, 2003
        Report No. 2005-S-00006

        June 28, 2005
Report Contributors:   Leah Nikaidoh
                       Lisa McCowan
                        U.S. Environmental Protection Agency                                             2005-S-00006

                        Office of Inspector General                                                      June 28, 2005





                        At a Glance
                                                                        Catalyst for Improving the Environment


Why We Did This Review            McGladrey & Pullen, LLP Single Audit of
                                  Geothermal Heat Pump Consortium, Inc.,
In a report that we had issued
on September 30, 2003,            for Year Ended December 31, 2003
related to an Environmental
Protection Agency (EPA)            What We Found
grant issued to Geothermal
Heat Pump Consortium, Inc.,       McGladrey & Pullen’s audit work met generally accepted government auditing
we identified significant         standards and the requirements in Office of Management and Budget Circular
questioned costs caused by an     A-133 and its related supplements. The firm’s audit report also met the Office of
inadequate financial
                                  Management and Budget Circular A-133 reporting requirements. We believe that
management system.
We performed this quality         the single auditor's report, which contained an unqualified opinion on the financial
assurance review to determine     statements and compliance with Federal requirements, accurately reflects
whether EPA could rely on the     Geothermal's financial position and compliance. We have no recommendations
2003 single audit report to       for EPA.
accept costs claimed under its
current grant to Geothermal.

Background

Under Office of Management
and Budget Circular A-133,
entities that receive Federal
funds of $300,000 in a year
are required to have a single
audit conducted. For 2003,
the Geothermal audit was
conducted by McGladrey &
Pullen, LLP. During 2003,
Geothermal incurred $554,517
in expenditures under an EPA
grant.

For further information,
contact our Office of
Congressional and Public
Liaison at (202) 566-2391.

To view the full report,
click on the following link:

www.epa.gov/oig/reports/2005/
20050628-2005-S-00006.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                                       OFFICE OF 

                                                                                  INSPECTOR GENERAL




                                          June 28, 2005

MEMORANDUM

SUBJECT:              McGladrey & Pullen, LLP Single Audit of Geothermal Heat Pump
                      Consortium, Inc., for Year Ended December 31, 2003
                      Report No. 2005-S-00006

FROM:                 Michael A. Rickey /s/ Michael A. Rickey
                      Director for Assistance Agreement Audits

TO:                   Richard Kuhlman, Director
                      Grants Administration Division


This is our final report on the subject quality control review performed by the Office of Inspector
General for the U.S. Environmental Protection Agency (EPA).

Purpose
The purpose of the quality control review of a single audit is to determine whether the audit was
conducted in accordance with generally accepted government auditing standards; the audit and
reporting requirements of Office of Management and Budget (OMB) Circular A-133, Audits of
States, Local Governments, and Non-Profit Organizations; its related Compliance Supplement;
and other applicable audit guidance.

Background
In an EPA Office of Inspector General audit report (2003-4-00120, dated September 30, 2003),
we identified significant questioned costs at Geothermal Heat Pump Consortium, Inc., based on
Geothermal having an inadequate financial management system. Under OMB Circular A-133,
entities that receive Federal funds of $300,000 in a given year are required to have a single audit
conducted, and Subpart D enables us to conduct a quality control review of such a single audit.
McGladrey & Pullen, LLP, conducted the single audit of Geothermal for the fiscal year ended
December 31, 2003. During 2003, Geothermal incurred $554,517 in expenditures under an EPA
grant.



                                                 1

Results of Review
McGladrey & Pullen’s audit work met generally accepted government auditing standards, and
the requirements in OMB Circular A-133 and its related supplements. The audit report met the
OMB Circular A-133 reporting requirements. We believe that the single auditor's report
accurately reflects Geothermal's financial position and compliance with Federal requirements.
McGladrey & Pullen issued an unqualified opinion on Geothermal’s financial statements and
compliance with Federal requirements, and did not identify any problems in the areas cited in the
review that had been conducted by the EPA Office of Inspector General.

Recommendations
We have no recommendations for EPA.

Action Required
There are no findings or recommendations that require EPA action. Therefore, this report is
being closed upon issuance. If you or your staff has any questions regarding this report, please
contact me at (312) 886-3037 or Leah Nikaidoh at (513) 487-2365.

Scope and Methodology

We conducted a quality control review of McGladrey & Pullen’s audit of Geothermal for the
year ended December 31, 2003, and the resulting reporting package that was submitted to the
Federal Audit Clearinghouse, dated September 8, 2004. We performed the review using the
1999 edition of the Uniform Quality Control Guide for the A-133 Audits. This guide applies to
any single audit subject to OMB Circular A-133 and the approved checklist of the President’s
Council on Integrity and Efficiency for performing the quality control reviews. We conducted
our review in May 2005 in accordance with applicable Government Auditing Standards, issued
by the Comptroller General of the United States. We assessed the following areas:

   •   Qualification of auditors
   •   Independence
   •   Due professional care
   •   Planning and supervision
   •   Internal control and compliance testing
   •   Schedule of Expenditures of Federal Awards
   •   Schedule of Findings and Questioned Costs
   •   Summary Schedule of Prior Audit Findings
   •   Data Collection Form

We reviewed the audit documentation prepared by McGladrey & Pullen, and discussed the audit
results with McGladrey & Pullen representatives. We also interviewed the EPA grant specialist
responsible for grants awarded to Geothermal.



                                                2

                                                             Appendix A

                                   Distribution 


EPA

Director, Grants Administration Division
Audit Followup Coordinator, Grants Administration Division
Agency Audit Followup Coordinator
Director, Office of Grants and Debarment
Inspector General


External

Partner, McGladrey & Pullen, LLP, Bethesda, Maryland




                                             3

